APPENDIX

TABLE OF APPENDICES
Appendix A
Order, United States Court of Appeals for
the Seventh Circuit, Troesch v. CTU, No.
21-1525 (Apr. 15, 2021) ................................. App-1
Appendix B
Order, United States District Court for the
Northern District of Illinois, Troesch v.
CTU, No. 20 C 2682 (Feb. 25, 2021) ............. App-4
Appendix C
Judgment, United States District Court for the
Northern District of Illinois, Troesch v.
CTU, No. 20 C 2682 (Feb. 26, 2021) ........... App-18
Appendix D
Opinion, United States Court of Appeals
for the Seventh Circuit, Bennett v.
AFSCME, 991 F.3d 724 (7th Cir. 2021) ..... App-20
Appendix E
Relevant Constitutional and Statutory
Provisions ................................................... App-41
U.S. Const. amend. I.............................. App-41
Act 115 Ill. Comp. Stat. 5/11.1 (2019) ... App-41

App-1

Appendix A
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
Everett McKinley Dirksen
United States Courthouse
219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
April 15, 2021
Before
MICHAEL S. KANNE, Circuit Judge
DIANE P. WOOD, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
JOANNE TROESCH and
IFEOMA NKEMDI, on
behalf of themselves and
the putative class,
Plaintiffs - Appellants
v.
No. 21-1525

CHICAGO TEACHERS
UNION, LOCAL UNION
NO. 1, AMERICAN
FEDERATION OF
TEACHERS and THE
BOARD OF EDUCATION
OF THE CITY OF
CHICAGO,
Defendants - Appellees
Originating Case Information:
District Court No: 1:20-cv-02682

App-2
Northern District of Illinois, Eastern Division District
Judge John Z. Lee

The following are before the court:
1. MOTION TO DISMISS OR STAY, filed on March
29, 2021, by counsel for Appellee Board of Education
of the City of Chicago.
2. APPELLEE CHICAGO TEACHERS UNION’S
JOINDER IN MOTION TO DISMISS OR STAY,
filed on March 31, 2021, by counsel for Appellee
Chicago Teachers Union.
3. APPELLANTS’ RESPONSE TO MOTION TO
DISMISS OR STAY, filed on April 5, 2021, by
counsel for appellants.
JoAnne Troesch and Ifeoma Nkemdi appeal the
dismissal of their complaint alleging that the Board of
Education of the City of Chicago and the Chicago
Teachers Union violated the First Amendment by
permitting union members to stop their dues
payments only during an annual escape period. The
parties agree that the outcome of Troesch and
Nkemdi’s appeal is controlled by our recent decision
in Bennett v. Council 31 of the American Federation of
State County and Municipal Employees, 991 F.3d 724
(7th Cir. 2021), in which we held that it does not
violate the First Amendment for a union to continue
deducting dues that an employee voluntarily agreed
to pay. Accordingly,

App-3
IT IS ORDERED that the motion is GRANTED and
the judgment of the district court is summarily
AFFIRMED.
form name: c7_Order_3J (form ID: 177)

App-4

Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

JOANNE TROESCH and
IFEOMA NKEMDI, on
behalf of themselves and
the putative class,

)
)
)
)
)
Plaintiffs,
)
)
v.
)
)
CHICAGO TEACHERS
)
UNION LOCAL UNION
)
NO. 1, AMERICAN
)
FEDERATION OF
)
TEACHERS, and THE
)
BOARD OF EDUCATION )
OF THE CITY OF
)
CHICAGO,
)
)
Defendants.
)

No. 20 C 2682
Judge John Z. Lee

MEMORANDUM OPINION AND ORDER
Joanne Troesch and Ifeoma Nkemdi, on behalf of
themselves and a putative class of similarly situated
employees (collectively, “Plaintiffs”), allege that the
Chicago Teachers Union (“CTU”) and the Chicago
Board of Education (“the Board”) (collectively,
“Defendants”) violated their First Amendment rights

App-5
under Janus v. American Federation of State, County,
and Municipal Employees, Council 31, 138 S. Ct. 2448
(2018), by continuing to enforce their signed
agreements to pay union dues until the annual
August window for revoking their dues authorizations
after they resigned their memberships in CTU in
October 2019. Defendants have moved to dismiss the
complaint with prejudice under Rule 12(b)(6), arguing
primarily that Plaintiffs fail to state a First
Amendment violation. For the following reasons, the
motions are granted. This case is terminated.
I.

Background1

The Illinois Educational Labor and Relations Act
(the “IELRA”) requires public-sector educational
employers like the Board, which oversees Chicago
Public Schools (“CPS”), to bargain over and enter into
collective bargaining agreements (“CBAs”) with
unions that have been chosen by a majority of
employees in a bargaining unit to serve as the
employees’ exclusive representative. See 115 Ill.
Comp. Stat. 5/3, 5/7, 5/10; About, Chicago Board of
Education,
https://www.cpsboe.org/about
(last
2
accessed Nov. 23, 2020). For employees of CPS, that
exclusive bargaining representative is CTU, an

1

When considering a motion to dismiss, the Court “must accept
as true all well-pleaded factual allegations and draw all
reasonable inferences in favor of the plaintiff.” Heredia v. Capital
Mgmt. Servs., L.P., 942 F.3d 811, 814 (7th Cir. 2019).
2

The Court may take judicial notice over these and other
relevant “matters of public record,” that the complaint does not
address. See Newcomb v. Brennan, 558 F.2d 825, 829 (7th Cir.
1977).

App-6
affiliate of the Illinois Federation of Teachers. Compl.
¶ 11, ECF No. 2.
Plaintiffs, along with roughly 24,000 other
teachers and school personnel, are employees of the
Board, and their employment terms are and have been
governed by a series of CBAs that CTU has negotiated
with the Board over the years. Id. ¶¶ 10–11. The
current CBA is effective from July 1, 2019, through
June 30, 2024, while the prior CBA was effective from
July 1, 2015, through June 30, 2019. Id. ¶ 10.
Both CBAs contain an identical Section 1-6,
entitled “Dues Checkoff.” This section provides that
the Board “shall deduct from the pay of each
bargaining unit employee from whom it receives an
authorization to do so the required amount of fees for
the payment of UNION dues.” Id. ¶ 12. Section 1-6
further states that any such “bargaining unit
employee may terminate the dues check off,” meaning
the dues authorization, “during the month of August
by submitting written notice to the BOARD and the
Union.” Id.
The authorization to which Section 1-6 of the CBAs
refers is part of CTU’s membership agreement, which
employees may sign if they so choose. See Pls.’ Ex. A,
Chicago Teachers Union Membership Applications of
J. Troesch and I. Nkemdi (“Membership Agreements”)
at 2–3, ECF No. 2-1. While becoming a member of
CTU “is not a condition of . . . employment,” see id.,
doing so carries numerous benefits, including the
ability to vote on contract demands, contract
proposals, strike proposals, and union elections; to
submit contract proposals; to influence political
endorsements; and to obtain legal representation in

App-7
the event of a dismissal proceeding. See Pls.’ Ex. C,
11/15/19 Letters from Union to J. Troesch and I.
Nkemdi (“Resignation Acknowledgement Letters”) at
2–3, ECF No. 2-1. Members also provide important
financial support for CTU’s bargaining efforts. See id.
In September 2017, Plaintiffs each signed
agreements to become members of CTU. Compl. ¶ 14;
see Membership Agreements at 2–3. In so doing, they
each signed a “Membership” provision stating that
their membership in CTU “shall be continuous unless
I notify CTU President in writing of my resignation.”
Compl. ¶ 14; see Membership Agreements at 2–3.
They also each subscribed to the aforementioned
“Dues Authorization” section:
During my employment, I voluntarily authorize
and direct my Employer to deduct from my pay
each period, regardless of whether I am or
remain a member of the Union, an amount
equal to the dues and assessments certified by
the Union, and to remit such amount monthly
to the Union. This authorization and direction
shall become revocable by sending written
notice to the Union by United States Postal
Service postmarked between August 1 and
August 31.
Id.; see Compl. ¶ 16. In other words, Plaintiffs agreed
to restrict to the month of August their ability to
revoke their authorizations to have union dues
deducted from their pay, even if they resigned from
CTU during another part of the year.
In October 2019, after becoming aware of the
Supreme Court’s 2018 decision in Janus, Plaintiffs
each sent letters to the Board and CTU resigning their

App-8
membership in CTU effective immediately. Id. ¶ 21;
see Pls.’ Ex. B, 10/18/19 Resignation Letters from J.
Troesch to Board and Union and 10/22/19 Resignation
Letters from I. Nkemdi to Board and Union
(“Resignation Letters”) at 2–5, ECF No. 2-1. The
letters, which were substantively identical, also
sought to invoke Plaintiffs’ purported rights under
Janus
to
immediately
revoke
their
dues
authorizations, asserting that the revocability
restrictions of their membership agreements had been
signed “under a framework Janus declared
unconstitutional.” Id.
CTU responded to each of Plaintiffs’ letters the
following month. Compl. ¶ 23; see Pls.’ Ex. C, 11/15/19
Resignation Acknowledgement Letters from Union to
J. Troesch and I. Nkemdi at 2–4, ECF No. 2-1. CTU’s
response accepted Plaintiffs’ resignations, but stated
that their dues authorizations would remain valid
until September 1, 2020—i.e., after the August 2020
revocation period—pursuant to their membership
agreements. Compl. ¶ 23; see Resignation
Acknowledgement Letters at 2, 4. And the Board
continues to deduct dues from their wages until
September 1, 2020. Id. ¶ 25.
Plaintiffs filed this case in May 2020. Their
complaint asserts two counts under 42 U.S.C. § 1983.
Count I claims that Defendants violated Plaintiffs’
First Amendment rights by enforcing the revocability
restrictions contained in the dues authorizations,
thereby compelling them to continue paying union
dues through August 2020. Compl. ¶¶ 46–48.
Relatedly, Count II claims that Defendants violated
Plaintiffs’ First Amendment rights by continuing to
deduct dues from their wages, pursuant to those

App-9
authorizations, even after they had resigned from
CTU and objected to such deductions in October 2019.
Id. ¶¶ 49–50. Plaintiffs seek a variety of relief for
these alleged deprivations, including declaratory
relief that the revocability restrictions, together with
Section 1-6 of the current and prior CBAs, are
unconstitutional under the First Amendment.3 See id.
at 13–14.
Defendants have moved to dismiss the entire
complaint with prejudice under Rule 12(b)(6). See Def.
Board’s Mot. Dismiss (“Board’s Mot.”), ECF No. 25;
Def. Union’s Mot. Dismiss, ECF No. 26.
II.

Legal Standard

To survive a motion to dismiss under Rule 12(b)(6),
a complaint must “state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). This
standard “is not akin to a probability requirement, but
it asks for more than a sheer possibility that a
Plaintiffs also seek a declaration that 115 Ill. Comp. Stat.
5/11.1, which authorizes restrictions on employees’ ability to
revoke their dues authorizations, Compl. ¶ 9, violates the First
Amendment, id. at 13. Defendants counter that Plaintiffs lack
standing to challenge the constitutionality of this provision
because it did not become effective until December 20, 2019,
about two months after they resigned from CTU. See 115 Ill.
Comp. Stat. 5/11.1. But because, as the Court explains, Plaintiffs
fail to state a violation of the First Amendment in the first place,
the Court need not assess whether they could seek relief as to
this provision.
3

App-10
defendant has acted unlawfully.” Id. (cleaned up).
“Where a complaint pleads facts that are merely
consistent with a defendant’s liability, it stops short of
the line between possibility and plausibility of
entitlement to relief.” Id. (cleaned up).
Determining whether a complaint states a
plausible claim for relief is a “context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679.
Moreover, while courts “must take all of the factual
allegations in the complaint as true” for purposes of a
motion to dismiss, they are “not bound to accept as
true a legal conclusion couched as a factual
allegation.” Papasan v. Allain, 478 U.S. 265, 286
(1986). Accordingly, “[t]hreadbare recitals of the
elements of a cause of action, supported by mere
conclusory statements, do not suffice” to state a claim
on which relief can be granted. Iqbal, 556 U.S. at 678.
III. Analysis
Defendants raise two arguments in their motion to
dismiss. Their principal argument is that the
complaint fails to state any violation of the First
Amendment, under Janus or otherwise. See Board’s
Mot. at 8–14; Def. Union’s Mem. Supp. Mot. Dismiss
(“Union’s Mem.”) at 6–11, ECF No. 27. They also
argue that the complaint fails to render either of them
liable under § 1983. See Board’s Mot. at 5–8; Union’s
Mem. at 11–14. For the reasons below, the Court
concludes that Plaintiffs’ First Amendment claims are

App-11
foreclosed by controlling Supreme Court precedent,
and the complaint is dismissed with prejudice.4
Both of Plaintiffs’ First Amendment claims are
based upon the same grievance: Defendants continued
to deduct union dues from Plaintiffs’ paychecks,
through August 2020, even after they had resigned as
members in CTU in October 2019. See Compl. ¶¶ 46–
50. In Plaintiffs’ view, the Supreme Court’s ruling in
Janus entitled them to stop paying dues when they
resigned in October 2019, notwithstanding the
expressed terms of their agreements. See Membership
Agreements at 2–3.

4

In light of the doctrine of constitutional avoidance, it is worth
noting that Defendants’ non-constitutional arguments lack
merit. Regarding § 1983, the Board argues that Plaintiffs fail to
identify an “express municipal policy” or “widespread practice
constituting a custom or usage” that caused their asserted
injuries, as required to trigger municipal liability under Monell
v. Dep’t of Soc. Servs. of City of N.Y., 436 U.S. 658 (1978), see
Simmons v. Chi. Bd. of Educ., 289 F.3d 488, 494 (7th Cir 2002);
while CTU argues that Plaintiffs fail to identify a sufficient
nexus between its conduct as a private actor and the conduct of
a state actor, see Hallinan v. Fraternal Order of Police of Chi.
Lodge No. 7, 570 F.3d 811, 815 (7th Cir. 2009). But the Board’s
position that Section 1-6 of the current and prior CBAs, in which
it agreed to enforce dues authorizations outside of the annual
August revocation period even where an employee has since
resigned from CTU, does not constitute an express policy is
unpersuasive. As for CTU, it overlooks that the Seventh Circuit
has found state action where, as here, a union is “a joint
participant” with state actors in an arrangement to have union
fees deducted from employees’ paychecks. See Janus v. Am. Fed’n
of State, Cty. & Mun. Emps., Council 31, 942 F.3d 352, 361 (7th
Cir. 2019), cert. docketed, No. 19-1104 (U.S. Mar. 10, 2020).

App-12
Plaintiffs’ theory, however, finds no support in
Janus. There, public sector employees brought a
challenge to an Illinois law that “forced [them] to
subsidize a union, even if they ch[o]se not to join and
strongly object[ed] to the positions CTU t[ook] in
collective bargaining and related activities.” 138 S. Ct.
at 2459–60. The Court held that such an “agency-fee”
arrangement—so called because employees who
declined to join CTU still had to pay an “agency” or
fair-share fee5—violated the First Amendment rights
of nonmember employees “by compelling them to
subsidize private speech on matters of substantial
public concern,” overruling Abood v. Detroit Board of
Education, 431 U.S. 209 (1977). Id. at 2460. In so
doing, the Court reasoned that extracting fees from
employees who had given “[n]o form of . . . consent” to
subsidize union speech, id. at 2486, triggered at least
intermediate scrutiny, which the challenged charges
failed to meet. See id. at 2465–69, 2474–78.
By contrast, Janus treated consenting employees
quite differently. The Supreme Court observed that
agency fees and other payments to the union may not
“be deducted from a nonmember’s wages . . . unless the
employee affirmatively consents to pay.” Id. at 2486
(emphasis added). “By agreeing to pay,” the Court
explained, “nonmembers are waiving their First
Amendment rights . . . .” Id. The Court further
explained that, “[t]o be effective, the waiver must be
freely given and shown by clear and compelling
evidence.” Id. (cleaned up). In other words, Janus
5

The 2015–2019 CBA between the Board and CTU contained a
“fair share” clause as well, but Defendants stopped enforcing it
once Janus was decided. Compl. ¶ 13.

App-13
excluded from its holding those nonmember employees
who “clearly and affirmatively consent before any
money is taken from them.” See id.
Janus, thus, did not disturb the Supreme Court’s
conclusion in Cohen v. Cowles Media Co. that “[t]he
First Amendment does not confer . . . a constitutional
right to disregard promises that would otherwise be
enforced under state law.” 501 U.S. 663, 671 (1991).
There, an informant challenged the state supreme
court’s holding that the First Amendment barred
enforcement of a newspaper’s promise to keep his
identity confidential in publishing unflattering stories
about a candidate in the 1982 state gubernatorial
election. Id. at 665–67. The Supreme Court reversed,
holding that “[t]he First Amendment does not forbid”
the doctrine of promissory estoppel from applying to
the press. Id. at 670. Any inhibition on “truthful
reporting,” the Court reasoned, was “no more than the
incidental,
and
constitutionally
insignificant,
consequence of . . . generally applicable law that
requires those who make certain kinds of promises to
keep them.” Id. at 671–72.
The Court need look no further than Janus and
Cohen to dispose of Plaintiffs’ First Amendment
claims. Indeed, courts have universally recognized
that Janus does not articulate a path “to escape the
terms” of an agreement to pay union dues, which
remain binding under Cohen even where an employee
has resigned her membership in CTU. Fisk v. Inslee,
759 F. App’x 632, 633–34 (9th Cir. 2019); accord
Fischer v. Governor of N.J., --- F. App’x ---, Nos. 193914 and 19-3995, 2021 WL 141609, at *8 (3d Cir.
Jan. 15, 2021) (“Because Janus does not abrogate or
supersede Plaintiffs’ contractual obligations, which

App-14
arise out of longstanding, common-law principles of
‘general applicability,’ Janus does not give Plaintiffs
the right to terminate their commitments to pay union
dues unless and until those commitments expire
under the plain terms of their membership
agreements.” (quoting Cohen, 501 U.S. 670)); Belgau
v. Inslee, 975 F.3d 940, 950 (9th Cir. 2020) (“These facts
speak to a contractual obligation, not a First
Amendment violation.”), cert. docketed, No. 20-1120
(U.S. Feb. 16, 2021); Oliver v. Serv. Emps. Int’l Union
Local 668, 830 F. App’x 76, 79 (3d Cir. 2020) (“It is
difficult to imagine language that would be more clear
and compelling as evidence of consent to . . . pay union
dues.”); Loescher v. Minn. Teamsters Pub. & Law Enf’t
Emps.’ Union, Local No. 320, 441 F. Supp. 3d 762, 773
(D. Minn. 2020) (“[Plaintiff’s] reliance on Janus is
misplaced and does not establish a cognizable claim to
relief.”), appeal dismissed, No. 20-1540, 2020 WL
5525220 (8th Cir. May 15, 2020); Hendrickson v.
AFSCME Council 18, 434 F. Supp. 3d 1014, 1023–24
(D.N.M. Jan. 22, 2020) (“[Plaintiff’s] choice was
voluntary, and he may not void his choice after
Janus.”), appeal docketed, No. 20-2018 (10th Cir. Feb.
21, 2020); Bennett v. Am. Fed’n of State, Cty. & Mun.
Emps., Council 31, AFL-CIO, --- F. Supp. 3d. ----, No.
4:19 C 4087, 2020 WL 1549603, at *4 (C.D. Ill. Mar.
31, 2020) (“Plaintiff’s obligation to pay union dues
pursuant to the 2017 Card remains enforceable
despite the new constitutional right identified in
Janus.”), appeal docketed, No. 20-1621 (7th Cir. Apr.
15, 2020); Allen v. Ohio Civil Serv. Emps. Ass’n
AFSCME, Local 11, No. 2:19 C 3709, 2020 WL
1322051, at *8 (S.D. Ohio Mar. 20, 2020) (“Because
Plaintiffs opted to join and pay dues to CTU, the

App-15
properly framed right at issue here is not whether
Plaintiffs have the right to not subsidize OCSEA’s
speech but whether they have a right to tear up those
contracts.”), appeal dismissed, No. 20-3440, 2020 WL
4194952 (6th Cir. July 20, 2020); see also LaSpina v.
SEIU Pa. State Council, 985 F.3d 278, 288 (3d Cir.
2021) (“[W]e decline to find any First Amendment
violation under Janus for an employer’s or union’s
failure to promptly process a member’s resignation
notice and terminate the associated dues
deductions.”).
The same result follows here. “By agreeing to pay”
dues until they could revoke their dues authorizations
during the annual August revocation period,
regardless of whether they remained members of
CTU, Plaintiffs waived their rights not to subsidize
CTU’s speech. See Janus, 138 S. Ct. at 2486. These
waivers were “freely given,” see id., as Plaintiffs each
attested, see Membership Agreements at 2–3 (“I
understand that signing this card is not a condition of
my employment.”). And it is indeed “difficult to
imagine” clearer and more compelling evidence of
these waivers than their own signed agreements. See
Oliver, 2020 WL 5946727, at *2.
Plaintiffs’ arguments to the contrary are
unavailing. They latch onto Janus’s language that
“nonmembers” cannot be compelled to pay union fees,
see, e.g., 138 S. Ct. at 2467, but ignore the Court’s
exclusion of employees who “affirmatively consent[] to
pay,” id. at 2486. They contend that clear and
compelling evidence of consent is absent here, but fail
to explain how their agreements furnish anything less.
Indeed, Plaintiffs do not identify “even a whiff of
compulsion” that led them to sign the agreements in

App-16
the first place. See Belgau, 975 F.3d at 950. They
suggest that their consent was terminated by their
objections to the deductions when they resigned their
union memberships, but point to nothing in Janus (or
any other case) allowing them to “renege on their
promise[s]” to pay dues until the following August
revocation period. See Belgau, 975 F.3d at 950. Nor do
Plaintiffs contend that their promises to pay dues are
unenforceable under state law. See Cohen, 501 U.S. at
671; cf. Kinkel v. Cingular Wireless LLC, 857 N.E.2d
250, 260 (Ill. 2006) (“One party to a contract may not
unilaterally modify a contract term . . . . ”).
Plaintiffs also argue that their consent was not
“voluntary, knowing, and intelligent” because, while
they agreed to the terms of the membership
agreements, they did not specifically agree to give up
their rights under Janus not to subsidize union
speech. See Pls.’ Resp. Opp’n Mots. Dismiss at 10–11,
ECF No. 34 (quoting Erie Telecomms., Inc. v. City of
Erie, 853 F.2d 1084, 1094 (3d Cir. 1988)). But, this
view of the law is much too myopic. As Janus makes
clear, Plaintiffs “waiv[ed] their First Amendment
rights” simply “[b]y agreeing to pay.” See 138 S. Ct. at
2486. And Janus “had no effect” on employees’ preexisting obligations “to pay fees pursuant to
voluntarily signed membership agreements.” Bennett,
2020 WL 1549603, at *3. As a result, Plaintiffs’ prior
dues agreements are not invalidated by that mere
“change[] in intervening law.” See Smith v. Bieker, No.
18 C 05472, 2019 WL 2476679, at *2 (N.D. Cal. June
13, 2019) (citing Brady v. United States, 397 U.S. 742,
757 (1970)), appeal docketed, No. 19-16381 (9th Cir.
July 12, 2019).

App-17
In sum, even when all of the well-pleaded factual
allegations in the complaint are taken to be true,
Plaintiffs’ legal theory finds no support in First
Amendment jurisprudence. The complaint is
dismissed, and because “it is clear that any
amendment would be futile,” the dismissal is with
prejudice. See Bogie v. Rosenberg, 705 F.3d 603, 608
(7th Cir. 2013).
IV. Conclusion
For the forgoing reasons, Defendants’ motions to
dismiss the complaint with prejudice are granted.
This case is terminated.
IT IS SO ORDERED.

ENTERED: 2/25/21

John Z. Lee
United States District Judge

App-18

Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Joanne Troesch,
Ifeoma Nkemdi
Plaintiff(s),
v.
Chicago Teachers Union,
Board of Education of
City of Chicago,
Defendant(s).

)
)
)
)
)
)
)
)
)
)
)
)

No. 20 C 2682
Judge John Z. Lee

JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
in favor of plaintiff(s)
and against defendant(s)
in the amount of $
which

includes ______ pre-judgment
interest.
does not include pre-judgment
interest.

App-19
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment. Plaintiff(s) shall recover costs from
defendant(s).
in favor of defendant(s) Chicago Teachers
Union, Board of Education of City of
Chicago and against plaintiff(s) JoAnne
Troesch, Ifeoma Nkemdi
Defendant(s) shall recover costs from plaintiff(s).
————————————————————————
other:
————————————————————————
This action was (check one):
tried by a jury with Judge __________ presiding,
and the jury has rendered a verdict.
tried by Judge __________ without a jury and the
above decision was reached.
decided by Judge Lee on a motion to dismiss.

Date: 2/26/2021

Thomas G. Bruton
Clerk of Court
Carmen Acevedo
Deputy Clerk

App-20

Appendix D

In the

United States Court of
Appeals
For the Seventh Circuit
——————————
No. 20‐1621
SUSAN BENNETT,

Plaintiff‐Appellant,
v.

COUNCIL 31 OF THE AMERICAN FEDERATION OF STATE,
COUNTY AND MUNICIPAL EMPLOYEES, AFL‐CIO, et al.,
Defendants‐Appellees.
——————————
Appeal from the United States District Court for the Central
District of Illinois.
No. 4:19‐cv‐04087 — Sara Darrow, Chief Judge.

——————————
ARGUED FEBRUARY 17, 2021 — DECIDED
MARCH 12, 2021
——————————
Before SYKES, Chief Judge, and FLAUM and
ROVNER, Circuit Judges.
FLAUM, Circuit Judge. When plaintiff–appellant
Susan Bennett began working as a custodian for
defendant–appellee Moline‐Coal Valley School
District (the “School District”), she had the choice

App-21
either to become a member of defendants–appellees
American Federation of State, County, and Municipal
Employees (“AFSCME”) Local 672 and AFSCME
Council 31 (collectively, the “Union”) and pay union
dues or to decline membership yet pay “fair‐share” or
“agency” fees.6 She chose to join the Union. Following
the Supreme Court’s decision in Janus v. American
Federation of State, County, and Municipal
Employees, Council 31, 138 S. Ct. 2448 (2018), she
notified the Union and the School District that she
wished to resign her membership and terminate all
payments to the Union. The Union allowed Bennett to
resign her membership and opt out of payments, but
only after the lapse of the window set forth in her
union‐membership agreement.
Bennett filed suit in federal district court, asserting
that the deduction of union dues from her wages
violated her rights under the First Amendment to the
U.S. Constitution, as recognized in Janus. She also
asserted that the Union’s exclusive representation of
her interests, even though she is no longer a member,
violates her constitutional rights by allowing the
Union to speak on her behalf. Bennett sought
damages in an amount equal to the dues deducted
from her paychecks up to the statute of limitations as
well as various forms of declaratory and injunctive
relief. The parties filed cross‐motions for summary
judgment, and the district court granted summary
judgment in favor of all defendants–appellees.
Bennett now appeals.

For simplicity, we use “fair‐share fees” throughout to refer to
these fees.
6

App-22
In a matter of first impression before this Court,
Bennett cannot establish that the deduction from her
wages of union dues she voluntarily agreed to pay in
consideration for the benefits of union membership
violated her First Amendment rights under Janus.
Similarly, she cannot establish that Janus rendered
the longstanding exclusive-bargaining-representative
system of labor relations unconstitutional. We thus
affirm the judgment of the district court.
I.

Background

A. Statutory and Legal Background
The Illinois Educational Labor Relations Act
(“IELRA” or the “Act”), 115 Ill. Comp. Stat. 5/1 et seq.,
regulates labor relations between Illinois public‐
sector educational employers and employees. The Act
provides public‐sector educational employees with the
right to choose to join a labor organization for
purposes of representation. Id. § 5/3(a). A majority of
employees in a bargaining unit may select a labor
organization to serve as the unit’s exclusive
representative “with respect to wages, hours and
other terms and conditions of employment.” See id. §§
5/8, 5/10(a). Employees need not become dues‐paying
members of a union that has been recognized as an
exclusive representative, id. § 5/3(a), and a union
recognized as an exclusive representative has the duty
to represent all employees within the bargaining unit
regardless of whether they are dues‐paying members
or not, id. § 5/3(b).
Prior to June 2018, a union certified as the
representative of a bargaining unit could require
nonmember employees to pay fair‐share fees. See id.
§ 5/11. The Supreme Court ended that practice when

App-23
it decided Janus. The Court in Janus held that the
First Amendment prohibits unions and public
employers from requiring public‐sector employees to
subsidize a union unless an employee affirmatively
consents to waive that right. 138 S. Ct. at 2486. This
“waiver must be freely given and shown by ‘clear and
compelling’ evidence.” Id. (quoting Curtis Publ’g Co. v.
Butts, 388 U.S. 130, 145 (1967) (plurality opinion)).
B. Factual Background
Bennett began her employment as a custodian
with the School District in August 2009. Under the
terms of the IELRA, the Illinois Educational Labor
Relations Board had certified the Union as the
exclusive representative of her bargaining unit of
custodial and maintenance employees. Bennett joined
the Union in November 2009 by signing a membership
and dues‐deduction‐authorization card that stated: “I
hereby authorize my employer to deduct the amount
as certified by the Union as the current rate of dues.
This deduction is to be turned over to AFSCME, AFL‐
CIO.” In August 2017, Bennett signed another
membership and dues‐deduction‐authorization card
that stated:
I hereby affirm my membership in AFSCME
Council 31, AFL‐CIO and authorize AFSCME
Council 31 to represent me as my exclusive
representative on matters related to my
employment.
I recognize that my authorization of dues
deductions, and the continuation of such
authorization from one year to the next, is
voluntary and not a condition of my
employment.

App-24
I hereby authorize my employer to deduct from
my pay each pay period that amount that is
equal to dues and to remit such amount
monthly to AFSCME Council 31 (“Union”). This
voluntary authorization and assignment shall
be irrevocable for a period of one year from the
date of authorization and shall automatically re‐
new from year to year unless I revoke this
authorization by sending written notice … to
my Employer and to the Union postmarked not
more than 25 days and not less than 10 days be‐
fore the expiration of the yearly period de‐
scribed above, or as otherwise provided by law.
Therefore, as a condition of her most recent union
membership agreement, Bennett authorized the
School District to deduct union dues from her
paychecks and remit that amount to the Union until
August 21 during each authorized year. On that date,
her authorization would automatically renew for the
following year unless she revoked it. The membership
agreement also contained a provision establishing a
fifteen‐day window in which Bennett could revoke her
authorization and stop the withholding of union dues
from her wages. See 5 Ill. Comp. Stat. 315/6(f)
(requiring—if the exclusive representative and public
employer agree on an automatically renewing one‐
year period of irrevocability for dues authorizations—
a minimum of “an annual 10‐day period” during which
employees may revoke their dues‐deduction
authorizations); 115 Ill. Comp. Stat. 5/11.1(a) (same).
On November 1, 2018, after the Supreme Court
issued its Janus decision, Bennett sent a letter to
AFSCME’s national office stating that she wanted to
resign her union membership and asking the Union to

App-25
stop collecting dues. On November 5, 2018, she wrote
to the School District’s chief financial officer,
informing him that she intended to resign her union
membership and requesting that the School District
not honor any prior dues‐deduction authorization she
had signed. In their December 3, 2018 response, the
School District told Bennett to contact the Union
regarding her inquiries, as the School District has no
role, authority, or discretion in determining union
membership or dues deductions. Ten days later, on or
around December 13, 2018, the Union sent a letter to
Bennett advising her that it would accept her
resignation from membership as soon as it received
written notice that she wanted to resign but,
regardless of whether she resigned from the Union,
she could not revoke her dues‐deduction authorization
until a two‐week window from July 17 to August 11,
2019.
Bennett resigned her union membership on March
4, 2019, but the School District continued deducting
union dues. On July 29, 2019, Bennett sent another
letter to the School District requesting to revoke her
dues‐deduction authorization. The Union learned of
that letter and treated it as an effective revocation of
her dues‐deduction authorization under the
membership agreement. The School District thus
stopped deducting union dues from Bennett’s wages
in August 2019.
C. Procedural Background
While waiting for the arrival of her two‐week
revocation window, Bennett brought this action under
42 U.S.C. § 1983 and 28 U.S.C. § 2201(a) against the
Union, the School District, and certain Illinois state

App-26
officials (the “state defendants”). In Count I of the two‐
count complaint, Bennett alleged that the Union and
the School District violated her First Amendment
rights to free speech and freedom of association by
deducting dues from her wages without her
affirmative consent. She alleged that the dues‐
deduction authorizations she had signed prior to the
issuance of the Janus decision did not provide
affirmative consent because they were the product of
an unconstitutional choice between paying full union
dues or a fair‐share fee. As a remedy, Bennett sought
damages from the Union in an amount equal to the
dues deducted from her paychecks, both before and
after Janus was decided. She also sought various
forms of declaratory and injunctive relief against the
Union and the School District. In Count II, brought
against the Union and the state defendants, Bennett
alleged that the system of exclusive representation set
forth in the IELRA violates her free speech and
associational rights. She sought a declaration that the
Act is unconstitutional and injunctions barring its
enforcement.
The state defendants moved to dismiss Count II
under Federal Rule of Civil Procedure 12(b)(6). The
remaining parties—Bennett, the Union, and the
School District—submitted a joint stipulated record
and filed cross‐motions for summary judgment under
Federal Rule of Civil Procedure 56(a) as to both
counts. The district court granted the Union’s and the
School District’s motions for summary judgment, as
well as the state defendants’ motion to dismiss, and
denied Bennett’s motion for summary judgment. The
court dismissed Bennett’s action with prejudice, thus
disposing of all claims against all parties.

App-27
This appeal followed.
II.

Discussion

We review de novo dismissals under both Rule
12(b)(6) and Rule 56(a). See Degroot v. Client Servs.,
Inc., 977 F.3d 656, 659 (7th Cir. 2020) (motion to
dismiss); Skiba v. Ill. Cent. R.R. Co., 884 F.3d 708, 717
(7th Cir. 2018) (summary judgment). Per the parties’
agreement, the district court treated the state
defendants’ 12(b)(6) motion as one for summary
judgment under Rule 56(a). Accordingly, we will
review all motions on appeal under the summary
judgment standard. “Summary judgment is
appropriate when there is no genuine dispute as to a
material fact and the movant is entitled to judgment
as a matter of law.” Est. of Jones v. Child.’s Hosp. &
Health Sys. Inc. Pension Plan, 892 F.3d 919, 923 (7th
Cir. 2018). When, as here, the parties filed cross‐
motions for summary judgment, we construe all
reasonable inferences in favor of the party against
whom the motion was granted. Gill v. Scholz, 962 F.3d
360, 363 (7th Cir. 2020). Therefore, we will view the
facts in the light most favorable to Bennett and draw
all reasonable inferences in her favor.
A. Deduction of Union Dues
Bennett first challenges the dismissal of Count I of
her complaint, which alleged that the Union and the
School District violated her First Amendment rights
by deducting union dues from her paychecks. She does
not dispute that she voluntarily authorized the
deduction of dues or that she was not required to join
the Union as a condition of employment. Nor does she
dispute that she voluntarily signed the revised union‐
membership agreement in 2017. Instead, Bennett’s

App-28
appeal turns on the premise that the Supreme Court’s
Janus decision establishing the First Amendment
right of public employees not to subsidize a union
without first affirmatively consenting to waive that
right applies to deduction of union dues. She contends
that the district court erred because it did not apply
Janus’s test for waiver, and under that test she did
not waive her right. Bennett thus effectively argues
that the Janus decision voided her dues‐deduction
authorization.
As the Union and the School District point out,
however, the Ninth Circuit and a panel of the Third
Circuit, as well as several district courts, have
addressed this very argument that Janus’s waiver
requirement applies to union members as well as
nonmembers and found it unavailing. Although not
precedential here, the cases before the courts of
appeals bear similarities to the case at hand. In the
Third and Ninth Circuit cases, the plaintiffs were
public employees who had, prior to Janus, signed
union‐membership agreements authorizing their
state employers to deduct union dues from their
paychecks. See Fischer v. Governor of New Jersey, No.
19‐3914, 2021 WL 141609, at *1–2 (3d Cir. Jan. 15,
2021) (nonprecedential decision); Belgau v. Inslee, 975
F.3d 940, 945 (9th Cir. 2020), petition for cert.
docketed, No. 20‐1120 (U.S. Feb. 16, 2021). After the
Supreme Court issued its Janus decision, each group
of plaintiffs requested to resign their union
memberships and terminate their payments. See
Fischer, 2021 WL 141609, at *2; Belgau, 975 F.3d at
946. Their unions allowed the plaintiffs to resign, but
their state employers continued to deduct dues from
their paychecks until the terms of their dues‐

App-29
deduction authorizations expired as set forth in state
law or the plaintiffs’ membership agreements. See
Fischer, 2021 WL 141609, at *2; Belgau, 975 F.3d at
946. The plaintiffs in each case sued their union and
various state defendants, asserting that the
defendants violated their First Amendment rights, as
established in Janus, by collecting union dues from
them without their consent and after they requested
to terminate all such payments; by their formulation,
Janus abrogated the commitments set forth in their
membership agreements and required the state to
obtain a constitutional waiver to deduct union dues
from its employees’ wages. See Fischer, 2021 WL
141609, at *3, *7; Belgau, 975 F.3d at 944, 950.
Both circuit court panels rejected the plaintiffs’
Janus arguments. Relying on the Supreme Court’s
decision in Cohen v. Cowles Media Co., 501 U.S. 663
(1991), they explained that “[t]he First Amendment
[did] not support [the plaintiffs’] right to renege on
their promise to join and support the union” because
that “promise was made in the context of a contractual
relationship between the union and its employees.”
Belgau, 975 F.3d at 950. See also Fischer, 2021 WL
141609, at *8 n.18 (“[E]nforcement of Plaintiffs’
membership agreements does not violate the First
Amendment given that those agreements are
enforceable under laws of general applicability ….”).
Applying those First Amendment principles, the
circuit court panels also agreed that “‘Janus does not
extend a First Amendment right to avoid paying
union dues’ when those dues arise out of a contractual
commitment that was signed before Janus was
decided.” Fischer, 2021 WL 141609, at *8 (quoting
Belgau, 975 F.3d at 951). Having determined that the

App-30
plaintiffs suffered no infringement upon their First
Amendment rights, the Third Circuit panel and the
Ninth Circuit rejected the argument that Janus
requires a constitutional waiver before union dues are
deducted. See id. at *8 n.18; Belgau, 975 F.3d at 952.
In reaching this holding, both panels noted that they
were joining a “swelling chorus of courts” recognizing
that Janus did not create a new waiver requirement
for union members. See Fischer, 2021 WL 141609, at
*8; Belgau, 975 F.3d at 951.
We see no reason to disagree. The First
Amendment “does not confer … a constitutional right
to disregard promises that would otherwise be
enforced under state law.” Cohen, 501 U.S. at 672.
Bennett authorized the deduction of union dues as
part of her membership agreement with the Union—
that is, “in the context of a contractual relationship.”
See Belgau, 975 F.3d at 950. The Illinois common law
of contracts is a “law of general applicability” that
applies broadly, rather than targeting any individual,
and does not offend the First Amendment. See Cohen,
501 U.S. at 670. The First Amendment therefore does
not, without more, render unenforceable any “legal
obligations” or “restrictions that … are self‐imposed”
through a contract. See id. at 671.
Moreover, it is generally accepted that “the legal
framework that existed at the time of a contract’s
execution must bear on its construction” and that “a
subsequent change in the law cannot retrospectively
alter the parties’ agreement.” Fla. E. Coast Ry. Co. v.
CSX Transp., Inc., 42 F.3d 1125, 1129–30 (7th Cir.
1994) (applying Florida law to settlement agreement).
See also 11 Williston on Contracts § 30:23 (4th ed.
2020) (“[C]hanges in the law subsequent to the

App-31
execution of a contract are not deemed to become part
of [an] agreement unless its language clearly indicates
such to have been [the] intention of [the] parties.”).
Rather, “[b]y binding oneself [by agreement,] one
assumes the risk of future changes in circumstances
in light of which one’s bargain may prove to have been
a bad one.” United States v. Bownes, 405 F.3d 634, 636
(7th Cir. 2005).7 “That is the risk inherent in all
contracts; they limit the parties’ ability to take
advantage of what may happen over the period in
which the contract is in effect.” Id. We see here no
clear indication that the parties intended the terms of
Bennett’s membership agreements and dues‐
deduction authorizations to incorporate future
changes in the law. Consequently, we agree with the
reasoning of the Third and Ninth Circuit panels and
conclude that the First Amendment does not provide
Bennett with a right to renege on her bargained‐for
commitment to pay union dues.
We also agree that Janus does not require a
different result. In that case, the Supreme Court held
that the practice of automatically deducting fair‐share
fees from nonmembers who “need not be asked” and
“are not required to consent before the fees are
deducted” violated those nonmembers’ First
Amendment rights by compelling them to subsidize
the union’s speech. Janus, 138 S. Ct. at 2460–61,
2486. In contrast, Janus said nothing about union
Although Bownes involved a plea agreement, we made
explicitly clear that the analysis applied equally to contracts. See
405 F.3d at 636 (“In a contract (and equally in a plea agreement)
one binds oneself to do something that someone else wants, in
exchange for some benefit to oneself.”).
7

App-32
members who, like Bennett, freely chose to join a
union and voluntarily authorized the deduction of
union dues, and who thus consented to subsidizing a
union. While Bennett tries to decouple the decision to
join the Union from the decision to pay union dues by
framing the right at issue here as the “right to pay no
money to the Union” (as she claims was recognized in
Janus), she cannot do so: “By joining the union and
receiving the benefits of membership, [Bennett] also
agreed to bear the financial burden of membership.”
Belgau, 975 F.3d at 951. See also Oliver v. Serv. Emps.
Int’l Union Loc. 668, 830 F. App’x 76, 79 n.3 (3d Cir.
2020) (nonprecedential decision) (explaining that one
“cannot simultaneously choose to both join the Union
and not pay union dues”); Allen v. Ohio Civ. Serv.
Emps. Ass’n AFSCME, Loc. 11, No. 2:19‐CV‐3709,
2020 WL 1322051, at *8 (S.D. Ohio Mar. 20, 2020)
(“By joining the union, Plaintiffs simultaneously
acquired all of the benefits and burdens of
membership.”), appeal dismissed, Nos. 20‐3440 & 20‐
3495, 2020 WL 4194952 (6th Cir. July 20, 2020).
Nothing in Janus suggests that its holding
regarding
union‐related
deductions
from
nonmembers’ wages also applies to similar financial
burdens on union members. The Janus Court
explicitly “dr[ew] the line at allowing the government
to … require all employees to support the union.” 138
S. Ct. at 2478. The Court also explicitly stated that
“[s]tates can keep their labor‐relations systems
exactly as they are—only they cannot force
nonmembers to subsidize public‐sector unions.” Id. at
2485 n.27. As we stated on remand in that case, the
Court “was not concerned in the abstract with the
deduction of money from employees’ paychecks

App-33
pursuant to an employment contract.” Janus v. Am.
Fed’n of State, Cnty. & Mun. Emps., Council 31
(“Janus II”), 942 F.3d 352, 357 (7th Cir. 2019). Nor did
it provide “an unqualified constitutional right to
accept the benefits of union representation without
paying.” Id. at 358. Stated differently, “[t]he only
right … recognized is that of an objector not to pay any
union fees.” Id.
In a last‐ditch effort to evade this conclusion,
Bennett argues that Janus’s waiver requirement
nonetheless applies to the deduction of union dues
“[b]ecause all employees are nonmembers when they
first sign a union membership card and authorize
dues deductions.” She seizes on language in Janus
stating that an employee’s affirmative consent is
required before “an agency fee [or] any other payment
to the union may be deducted from a nonmember’s
wages,” and that “[b]y agreeing to pay, nonmembers
are waiving their First Amendment rights, and such a
waiver cannot be presumed.” Janus, 138 S. Ct. at
2486. She argues that the second part of this passage
must apply to employees in Bennett’s position
because, by definition, only union members have
agreed to pay money to the union. In other words, she
contends that it cannot apply to nonmember
employees who have never agreed to pay the union
and thus never waived their First Amendment rights.
Bennett, however, is not a nonmember as the term
was used in Janus. Read as a whole, Janus
distinguished between those who consented to join a
union—as Bennett did—and those who did not. In the
same passage on which Bennett relies, the Court
made clear that a union may collect dues when an
“employee affirmatively consents to pay.” Id. As we

App-34
explained above, Bennett voluntarily signed the
membership agreements, which “authorize[d] [her]
employer to deduct” her union dues and remit them to
the Union. In August 2017, she also agreed that this
authorization would remain in effect for the duration
of her employment unless she validly revoked the
authorization. Having consented to pay dues to the
union, regardless of the status of her membership,
Bennett does not fall within the sweep of Janus’s
waiver requirement. See Belgau, 975 F.3d at 952
(explaining that Janus “in no way created a new First
Amendment waiver requirement for union members
before dues are deducted pursuant to a voluntary
agreement”). Having determined that Bennett did not
suffer a violation of her First Amendment rights, we
conclude that the district court appropriately granted
summary judgment for defendants–appellees as to
Count I.
B. Exclusive Representation
Bennett also appeals the dismissal of Count II of
her complaint, which alleged that provisions in the
IELRA providing for the Union’s exclusive
representation of her interests—even though she is no
longer a member—violate her First Amendment free
speech and associational rights. The First
Amendment “forbids abridgment of the freedom of
speech.” Janus, 138 S. Ct. at 2463. It also
“encompasses both the freedom to associate and the
freedom not to associate.” Hill v. Serv. Emps. Int’l
Union, 850 F.3d 861, 863 (7th Cir. 2017) (citing Knox
v. Serv. Emps. Int’l Union, Loc. 1000, 567 U.S. 298,
309 (2012)). “Mandatory associations are subject to
exacting scrutiny, meaning they require a compelling
state interest that cannot be achieved through

App-35
significantly less‐restrictive means.” Id. Bennett
argues that the IELRA creates a mandatory
association subject to heightened scrutiny. We agree
with the district court that caselaw forecloses this
argument.
In Minnesota State Board for Community Colleges
v. Knight, 465 U.S. 271 (1984), the Supreme Court
rejected a First Amendment challenge to a Minnesota
law that provided for exclusive‐bargaining‐unit
representation for purposes of collective bargaining
and on matters outside the scope of mandatory
negotiations. See id. at 273–78. The Court held that
the challenged law “in no way restrained [the
employees’] freedom to speak … or their freedom to
associate or not to associate with whom they please,
including the exclusive representative.” Id. at 288.
The Court explained that the employees’ free speech
rights had not been infringed because the law did not
deny nonunion members access to a public forum, and
public employees had no right to be heard by, or
negotiate individually with, their government
employer. See id. at 280–83, 286–87. Similarly, the
Minnesota law did not violate the employees’
associational rights because they remained “free to
form whatever advocacy groups they like” and were
“not required to become members of [the union].” Id.
at 289.
We followed Knight to uphold the constitutionality
of the exclusive‐bargaining‐representative provisions
of the Illinois Public Labor Relations Act—the parallel
statute to the IELRA—in Hill v. Service Employees
International Union, 850 F.3d at 864–66. In that case,
a group of home healthcare and childcare providers
argued that these provisions violated their First

App-36
Amendment associational rights because the statute
forced them into a mandatory association with the
union that represented their bargaining unit. Id. at
862–63. We held that the exclusive representation
statute did not infringe on the plaintiffs’ freedom of
association because, as in Knight, the plaintiffs “do not
need to join … or financially support” the union8 and
could form their own groups or oppose the union if
they chose. Id. at 864. We further rejected the
plaintiffs’ argument that the law created a mandatory
association triggering heightened scrutiny because
the exclusive‐representation system of labor relations
did not compel them to express a particular message,
accept undesired members into their own associations,
or modify their expressive conduct. Id. at 865.
Knight and Hill control here to foreclose Bennett’s
claims based on the alleged infringement of her First
Amendment free speech and associational rights.
Bennett contends that exclusive representation
creates a mandatory association subject to exacting
scrutiny because it compels her to both associate with
the Union and endorse speech that she finds
objectionable. She further argues that exclusive
representation under the IELRA does not meet that
heightened standard because it does not serve a
compelling state interest. As we did in Hill, we again
reject these arguments against the constitutionality of
exclusive representation.
Although we decided Hill prior to Janus, at that time the
Supreme Court had already struck down as unconstitutional the
part of the Illinois Public Labor Relations Act that required the
Hill plaintiffs to pay mandatory fees. See Harris v. Quinn, 573
U.S. 616, 656 (2014).
8

App-37
Moreover, we find Bennett’s attempts to
distinguish Knight and Hill from this case
unavailing. First, Bennett argues that Knight is
distinct because it did not involve a compelled‐
representation challenge but addressed only whether
the plaintiffs could force the government to listen to
their views. We considered and rejected that
argument in Hill because Knight acknowledged that
exclusive bargaining required the state to treat the
union representatives as expressing “the faculty’s
official collective position” even though “not every
instructor agrees with the official faculty view on
every policy question.” Knight, 465 U.S. at 276. The
Knight Court nonetheless concluded that this system
of labor relations “in no way restrained appellees’
freedom to speak … or their freedom to associate or
not to associate with whom they please, including the
exclusive representative.” Id. at 288.
Second, Bennett asserts that Hill itself is distinct
because the plaintiffs there were “partial” public
employees—and their union thus had a limited ability
to collectively bargain on their behalf. Accordingly, she
argues that the Hill plaintiffs experienced a lesser
degree of forced association than Bennett does as a
“full‐fledged” public employee. As explained above,
however, we based our decision in Hill on Knight,
which considered the exclusive representation of full
public employees. Compare Knight, 465 U.S. at 275–
76 (explaining that the Minnesota State Board for
Community Colleges, the plaintiff faculty members’
employer, operated and retained final policy‐making
authority over the state’s community college system),
with Harris, 573 U.S. at 621–23, 645–46 (describing
plaintiff care providers as “partial,” as opposed to “full‐

App-38
fledged,” public employees because Illinois law
established that private persons receiving homecare
services are “employers” of and “control[] all aspects
of the employment relationship” with care providers,
while “the State’s role is comparatively small”).
We also disagree with Bennett’s narrow reading of
Hill; our reasoning in that case, rather than being
specific to partial public employees, is equally
applicable to Bennett because—like the Hill
plaintiffs—she remains free to join or support a union
and to associate or not associate with whomever she
chooses. See Hill, 850 F.3d at 864–65. Nor must she
modify her expressive conduct. See id. at 865. In any
event, since Hill, we have stated that “Knight and its
progeny firmly establish the constitutionality of
exclusive representation” for full public employees.
Ocol v. Chi. Tchrs. Union, 982 F.3d 529, 532 (7th Cir.
2020).
Finally, we remain unpersuaded by Bennett’s
argument in the alternative that Janus overturned
Knight (and by extension Hill). She relies on a passage
in Janus characterizing exclusive representation as “a
significant impingement on associational freedoms
that would not be tolerated in other contexts.” 138
S. Ct. at 2478; see also id. at 2460 (explaining that
exclusive representation “substantially restricts the
rights of individual employees”). But Janus did not
mention, let alone overrule, Knight or otherwise
question the constitutionality of a system of labor
relations based on exclusive representation. The same
passage from Janus that Bennett relies on reaffirms
that “[i]t is … not disputed that the State may require
that a union serve as exclusive bargaining agent for
its employees …. We simply draw the line at allowing

App-39
the government to go further still and require all
employees to support the union irrespective of
whether they share its views.” Id. at 2478. After
acknowledging this principle, the Janus Court
concluded that “[s]tates can keep their labor‐relations
systems exactly as they are,” other than charging fair‐
share fees. Id. at 2485 n.27.
In contrast, Knight speaks directly to the
constitutionality of exclusive representation. “The
[Supreme] Court’s instructions in this situation are
clear: ‘If a precedent of this Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case [that] directly controls,
leaving to this Court the prerogative of overruling its
own decisions.’” Price v. City of Chicago, 915 F.3d
1107, 1111 (7th Cir. 2019) (alteration in original)
(quoting Agostini v. Felton, 521 U.S. 203, 237, (1997)).
Consistent with that instruction, we apply Knight’s
directly applicable precedent and hold that the
IELRA’s exclusive‐bargaining‐representative arrangement does not violate Bennett’s First Amendment
rights. We find further reinforcement for this
conclusion in the fact that every circuit court to
address this issue after the Janus decision has held
that exclusive representation remains constitutional.
See Reisman v. Associated Facs. of Univ. of Me., 939
F.3d 409, 414 (1st Cir. 2019), cert. denied, 141 S. Ct.
445 (2020); Oliver, 830 F. App’x at 80–81 (Third
Circuit panel decision); Akers v. Md. State Educ.
Ass’n, No. 19‐1524, 2021 WL 852086, at *5 n.3 (4th
Cir. Mar. 8, 2021); Thompson v. Marietta Educ. Ass’n,
972 F.3d 809, 813–14 (6th Cir. 2020), petition for cert.
docketed, 20‐1019 (U.S. Jan. 28, 2021); Bierman v.

App-40
Dayton, 900 F.3d 570, 574 (8th Cir. 2018); Mentele v.
Inslee, 916 F.3d 783, 786–89 (9th Cir. 2019).
The district court thus appropriately granted
summary judgment for defendants–appellees as to
Count II.
III. Conclusion
Bennett cannot establish the existence of a First
Amendment violation on either of the counts in her
complaint. We therefore AFFIRM the district court’s
grant of summary judgment for defendants–appellees
and denial of summary judgment for Bennett.

App-41

Appendix E
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Act 115 Ill. Comp. Stat. 5/11.1 (2019)
(a) Employers shall make payroll deductions of
employee organization dues, initiation fees,
assessments, and other payments for an employee
organization that is the exclusive representative.
Such deductions shall be made in accordance with the
terms of an employee’s written authorization and
shall be paid to the exclusive representative. Written
authorization may be evidenced by electronic
communications, and such writing or communication
may be evidenced by the electronic signature of the
employee as provided under Section 5-120 of the
Electronic Commerce Security Act.
There is no impediment to an employee’s right to
resign union membership at any time. However,
notwithstanding any other provision of law to the
contrary regarding authorization and deduction of
dues or other payments to a labor organization, the
exclusive representative and an educational employee
may agree to reasonable limits on the right of the
employee to revoke such authorization, including a

App-42
period of irrevocability that exceeds one year. An
authorization that is irrevocable for one year, which
may be automatically renewed for successive annual
periods in accordance with the terms of the
authorization, and that contains at least an annual
10-day period of time during which the educational
employee may revoke the authorization, shall be
deemed reasonable. This Section shall apply to all
claims that allege that an educational employer or
employee organization has improperly deducted or
collected dues from an employee without regard to
whether the claims or the facts upon which they are
based occurred before, on, or after the effective date of
this amendatory Act of the 101st General Assembly
and shall apply retroactively to the maximum extent
permitted by law.
(b) Upon receiving written notice of the
authorization, the educational employer must
commence dues deductions as soon as practicable, but
in no case later than 30 days after receiving notice
from the employee organization. Employee deductions
shall be transmitted to the employee organization no
later than 10 days after they are deducted unless a
shorter period is mutually agreed to.
(c) Deductions shall remain in effect until:
(1) the educational employer receives notice that
an educational employee has revoked his or her
authorization in writing in accordance with the terms
of the authorization; or
(2) the individual educational employee is no
longer employed by the educational employer in a
bargaining unit position represented by the same
exclusive representative; provided that if such

App-43
employee is, within a period of one year, employed by
the same educational employer in a position
represented by the same employee organization, the
right to dues deduction shall be automatically
reinstated.
Nothing in this subsection prevents an employee
from continuing to authorize payroll deductions when
no longer represented by the exclusive representative
that would receive those deductions.
Should the individual educational employee who
has signed a dues deduction authorization card either
be removed from an educational employer’s payroll or
otherwise placed on any type of involuntary or
voluntary leave of absence, whether paid or unpaid,
the employee’s dues deduction shall be continued
upon that employee’s return to the payroll in a
bargaining unit position represented by the same
exclusive representative or restoration to active duty
from such a leave of absence.
(d) Unless otherwise mutually agreed by the
educational
employer
and
the
exclusive
representative, employee requests to authorize,
revoke, cancel, or change authorizations for payroll
deductions for employee organizations shall be
directed to the employee organization rather than to
the educational employer. The employee organization
shall be responsible for initially processing and
notifying the educational employer of proper requests
or providing proper requests to the employer. If the
requests are not provided to the educational employer,
the employer shall rely on information provided by the
employee organization regarding whether deductions
for an employee organization were properly

App-44
authorized, revoked, canceled, or changed, and the
employee
organization
shall
indemnify
the
educational employer for any damages and reasonable
costs incurred for any claims made by educational
employees for deductions made in good faith reliance
on that information.
(e) Upon receipt by the exclusive representative of
an appropriate written authorization from an
individual educational employee, written notice of
authorization shall be provided to the educational
employer and any authorized deductions shall be
made in accordance with law. The employee
organization shall indemnify the educational
employer for any damages and reasonable costs
incurred for any claims made by an educational
employee for deductions made in good faith reliance
on its notification.
(f) The failure of an educational employer to
comply with the provisions of this Section shall be a
violation of the duty to bargain and an unfair labor
practice. Relief for the violation shall be
reimbursement by the educational employer of dues
that should have been deducted or paid based on a
valid authorization given by the educational employee
or employees. In addition, the provisions of a collective
bargaining agreement that contain the obligations set
forth in this Section may be enforced in accordance
with Section 10.
(g) The Illinois Educational Labor Relations Board
shall have exclusive jurisdiction over claims under
Illinois law that allege an educational employer or
employee organization has unlawfully deducted or
collected dues from an educational employee in

App-45
violation of this Act. The Board shall by rule require
that in cases in which an educational employee alleges
that an employee organization has unlawfully
collected dues, the educational employer shall
continue to deduct the employee’s dues from the
employee’s pay, but shall transmit the dues to the
Board for deposit in an escrow account maintained by
the Board. If the exclusive representative maintains
an escrow account for the purpose of holding dues to
which an employee has objected, the employer shall
transmit the entire amount of dues to the exclusive
representative, and the exclusive representative shall
hold in escrow the dues that the employer would
otherwise have been required to transmit to the Board
for escrow; provided that the escrow account
maintained by the exclusive representative complies
with rules adopted by the Board or that the collective
bargaining agreement requiring the payment of the
dues contains an indemnification provision for the
purpose of indemnifying the employer with respect to
the employer’s transmission of dues to the exclusive
representative.
(h) If a collective bargaining agreement that
includes a dues deduction clause expires or continues
in effect beyond its scheduled expiration date pending
the negotiation of a successor agreement, then the
employer shall continue to honor and abide by the
dues deduction clause until a new agreement that
includes a dues deduction clause is reached. Failure
to honor and abide by the dues deduction clause for
the benefit of any exclusive representative as set forth
in this subsection (h) shall be a violation of the duty
to bargain and an unfair labor practice. For the
benefit of any successor exclusive representative

App-46
certified under this Act, this provision shall be
applicable, provided the successor exclusive
representative presents the employer with employee
written authorizations or certifications from the
exclusive representative for the deduction of dues,
assessments, and fees under this subsection (h).
(i)(1) If any clause, sentence, paragraph, or
subdivision of this Section shall be adjudged by a court
of competent jurisdiction to be unconstitutional or
otherwise invalid, that judgment shall not affect,
impair, or invalidate the remainder thereof, but shall
be confined in its operation to the clause, sentence,
paragraph, or subdivision of this Section directly
involved in the controversy in which such judgment
shall have been rendered.
(2) If any clause, sentence, paragraph, or part of a
signed authorization for payroll deductions shall be
adjudged by a court of competent jurisdiction to be
unconstitutional or otherwise invalid, that judgment
shall not affect, impair, or invalidate the remainder of
the signed authorization, but shall be confined in its
operation to the clause, sentence, paragraph, or part
of the signed authorization directly involved in the
controversy in which such judgment shall have been
rendered.

